<html>
<title> - ASSESSING THE GOVERNMENT'S ROLE IN SERVING RURAL AMERICAN SMALL BUSINESSES (PART ONE)</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]






 
    ASSESSING THE GOVERNMENT'S ROLE IN SERVING RURAL AMERICAN SMALL 
                         BUSINESSES (PART ONE)

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON RURAL DEVELOPMENT, AGRICULTURE, TRADE, AND 
                            ENTREPRENEURSHIP

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           NOVEMBER 14, 2019

                               __________
                               
                               

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               


                               

            Small Business Committee Document Number 116-061
             Available via the GPO Website: www.govinfo.gov
             
             
                              ______
                          

                U.S. GOVERNMENT PUBLISHING OFFICE 
 38-315                   WASHINGTON : 2020             
             
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                   
                   
                   
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Abby Finkenauer.............................................     1
Hon. John Joyce..................................................     3

                               WITNESSES

Ms. Bette Brand, Administrator, Rural Business-Cooperative 
  Service, USDA-Rural Development, Washington, DC................     5
Ms. Michelle Christian, National Director, Office of Rural 
  Affairs, United States Small Business Administration, 
  Washington, DC.................................................     6

                                APPENDIX

Prepared Statements:
    Ms. Bette Brand, Administrator, Rural Business-Cooperative 
      Service, USDA-Rural Development, Washington, DC............    22
    Ms. Michelle Christian, National Director, Office of Rural 
      Affairs, United States Small Business Administration, 
      Washington, DC.............................................    25
Questions and Answers for the Record:
    Questions from the Small Business Committee to Ms. Michelle 
      Christian and Answers from Ms. Michelle Christian..........    28
Additional Material for the Record:
    Letter to Hon. Chris Pilkerton, Acting SBA Administrator, 
      Small Business Administration..............................    50
    SBIA - Small Business Investor Alliance......................    52


    ASSESSING THE GOVERNMENT'S ROLE IN SERVING RURAL AMERICAN SMALL 
                         BUSINESSES (PART ONE)

                              ----------                              


                      THURSDAY, NOVEMBER 14, 2019

                  House of Representatives,
               Committee on Small Business,
    Subcommittee on Rural Development, Agriculture,
                                Trade and Entrepreneurship,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2360, Rayburn House Office Building, Hon. Abby Finkenauer 
[chairwoman of the Subcommittee] presiding.
    Present: Representatives Finkenauer, Golden, Craig, 
Radewagen, Joyce, and Bishop.
    Also Present: Representative Cox.
    Chairwoman FINKENAUER. Good morning. The Committee will 
come to order.
    Thank you all so much for joining us here today, and 
special thanks to our witnesses for being here today to 
testify.
    The Department of Agriculture and Small Business 
Administration are two of the federal agencies with the 
significant resources and potential to drive economic growth in 
our small towns and in our rural areas. These agencies are 
tasked with administering hundreds of millions of dollars in 
funding for businesses and community development. Today's 
hearing is about making sure that our taxpayer dollars are 
being used effectively and are reaching the rural communities 
that need them the most.
    As the Congresswoman from Iowa's First Congressional 
District, I know firsthand that our friends and neighbors in 
rural communities are dealing with a lot of challenges, 
especially right now. Growing up in Sherrill, Iowa--as I like 
to say, a town with more cows than people, in rural Dubuque 
County--my mom and dad taught my brother, my sisters, and me 
the value of hard work, how to respect and care for others, and 
the strength of our rural communities.
    Sadly, some of our rural communities are still struggling 
to recover from the recession.
    From 2010 to 2016, population in rural counties went down 
as people left our small towns for what they hoped would be 
better jobs or went away for college or graduate schools and 
never came back home.
    This trend is starting to reverse, though, in some places.
    Nationally, the number of people living in rural areas went 
up between 2016 and 2017, the first rural population increase 
in nearly a decade, though this growth isn't being seen in 
every rural county.
    According to the Department of Agriculture, much of that 
growth is concentrated in communities closer to big cities or 
in areas with more infrastructure or development. Rural 
unemployment is also going down but still hasn't caught up to 
the lower rates in urban and metropolitan areas. We still have 
more work to do to improve economic opportunities in our small 
towns and rural communities, and make sure that places like 
northeast Iowa are not left behind as our way of life in doing 
business changes.
    That is the reason we are here today; to learn more about 
what the Small Business Administration and the Department of 
Agriculture can do to give small businesses in rural America 
the tools they need to grow and succeed.
    When we look at ways to drive economic and business 
development in rural communities, one strategy that has 
demonstrated real promise is small scale entrepreneurship. 
Small businesses create more than half of all new jobs in rural 
areas. Entrepreneurs in rural America start businesses at 
higher rates than urban Americans, and their businesses are 
often more resilient than storefronts and startups in urban 
areas. Rural America has also become more economically diverse 
than in past decades as sectors like healthcare and tourism 
continue to grow.
    In northeast Iowa, our small business owners are not just 
farmers and manufacturers, but also biofuel producers, 
breweries, and bike shop owners. I think that many of my 
colleagues here today, including Dr. Joyce, can speak to how 
the economic opportunities and challenges in rural communities 
that they represent have changed over the last decade. I bring 
this up to underscore the need for policy solutions that are 
flexible and dynamic to support small businesses and rural 
economies.
    I already know some of the ways the Department of 
Agriculture and Small Business Administration are making a 
difference when it comes to economic development in northeast 
Iowa. We have seen it firsthand. For example, a Value-Added 
Producer Grant from the Department of Agriculture helped Dan 
and Debbie's Creamery--a first-generation dairy farm in Ely, 
Iowa--offer new products, expand into new markets, and become 
part of a growing regional foods movement in Iowa. Community 
Memorial Hospital in Sumner, Iowa, was able to leverage 
financing from the Department of Agriculture to build new 
health care facilities and expand access to specialty care in 
Bremer County.
    These are two success stories showing how the Department of 
Agriculture Rural Development is partnering with our 
businesses, public and private community-based organizations, 
and financial institutions to create jobs and new economic 
opportunities in rural areas.
    The Small Business Administration, like the Department of 
Agriculture, has many programs designed to boost access to 
capital and support small businesses. On almost every Main 
Street that I visit in Iowa, I hear how financing backed by the 
Small Business Administration has helped small business owners 
turn their dreams into reality.
    Unlike Department of Agriculture Rural Development 
programs, the Small Business Administration helps urban and 
rural businesses alike, but the bulk of their services are 
concentrated in metropolitan areas. Part of the reason why we 
are here today is to ensure that resources and services offered 
by the Small Business Administration are well suited to assist 
our small businesses in rural areas and complement existing 
rural development programs.
    A few months ago, I joined my colleagues Mr. Cox, Mr. 
Golden, and Ms. Craig, in sending a letter to the Small 
Business Administration requesting more information about its 
Office of Rural Affairs, an entity that was established by 
Congress over 20 years ago but was seemingly never set up by 
the Small Business Administration. While I am pleased the 
Administration has recently appointed a national director of 
the Office of Rural Affairs, it isn't clear how this office is 
serving small businesses or why the agency has only now 
appointed a director.
    In 2013 and again in 2018, the Department of Agriculture 
and the Small Business Administration signed a memorandum of 
understanding to support rural small businesses and economic 
development. I am particularly interested in learning more 
about how the most recent agreement has changed, how these 
agencies are working together, and improving the effectiveness 
of their services. Given the state of agricultural economy at 
this time, and in my state in particular, I am especially 
interested in learning how the Office of Rural Affairs will be 
working with the Department of Agriculture to provide 
additional assistance to our farmers and agribusinesses during 
this very troubling time.
    With the President's ongoing trade war with China and 
attacks on renewable fuel standard--on top of the flooding and 
extreme weather we have seen in the Midwest--our farmers are 
hurting, and I hope that today's discussion will help us find 
ways to improve coordination and collaboration between these 
programs that serve small businesses across all sectors of the 
rural economy.
    Again, thank you so much to our witnesses for being here 
today for what I hope will be a very productive discussion.
    I am excited to have Dr. Joyce joining us here as well, our 
Ranking Member.
    With that, I would like to yield to Dr. Joyce, Ranking 
Member of this Committee.
    Mr. JOYCE. Thank you, Chairwoman Finkenauer, and thank you 
for holding this hearing and for holding the hearing last month 
in Gettysburg in my district. It was a pleasure to introduce 
you to the Keystone State, and I hope you can come back and 
spend more time in Gettysburg and tour the battlefields.
    At that field hearing, my constituents explained the 
significant negative effects of poor internet service and the 
access that the internet has on our communities. There is no 
doubt that small businesses of all industries require access to 
reliable and affordable broadband to compete in local, 
national, and international markets. Rural small businesses 
like those in my district and in our Chairwoman's district as 
well are constrained by limited access to resources. In 
addition, inadequate access to the internet, rural firms have 
less financing options, less qualified and available workers, 
and less business assistant services than urban firms do. Our 
rural communities depend on the success of local small 
businesses.
    Today, we will review the USDA and SBA rural economic 
development initiatives and those impacts on small businesses. 
In a 2008 report, a U.S. Government Accountability Office 
report titled, Rural Economic Development: Collaboration 
Between SBA and USDA Could Be Improved, determined that the SBA 
and the USDA have complementary missions and services in our 
rural areas. GAO recommended that these agencies initiate more 
formal collaborations which would allow leverage the unique 
strengths of each program, increase the number of financing 
options available to rural borrowers and ultimately improve 
economic development in rural areas. My question that we will 
pose to you with your presentations is, has there been any 
progress over the past 11 years?
    Thank you for both of our witnesses for providing us an 
update on the collaborative efforts between SBA and USDA. As 
the Small Business Committee, we know that your team work has 
the greatest impact.
    I yield back.
    Chairwoman FINKENAUER. Thank you, Dr. Joyce. The gentleman 
yields back.
    If Subcommittee members have an opening statement prepared, 
we ask that they be submitted for the record.
    I would now just like to take a minute to explain the 
timing rules. Each witness gets 5 minutes to testify and 
members get 5 minutes for questioning. There is a lighting 
system in front of you to assist you. The green light will be 
on when you begin and then the yellow light will come on when 
you have 1 minute remaining. The red light comes on when you 
are out of time, and we ask that you stay within the timeframe 
to the best of your ability.
    I would now like to introduce our witnesses. Our first 
witness is Ms. Bette Brand, the administrator of the Rural 
Business-Cooperative Service at the Department of Agriculture. 
She came to the agency after 35 years with Farm Credit of the 
Virginias, where she mostly recently served as chief advocate 
for the agriculture industry and rural business, supporting 
producers at the state and national level and educating 
policymakers and consumers about agriculture. She has wide-
ranging experiences, having served on the Virginia Agribusiness 
Council, the Virginia Horse Council, the Virginia Cooperative 
Council, and the Virginia Foundation for Agriculture in the 
Classroom.
    Welcome, and thank you for being here today, Ms. Brand.
    Our second witness is Ms. Michelle Christian, who was first 
appointed by the White House on February 20, 2018, to serve as 
the U.S. Small Business Administration Mid-Atlantic regional 
administrator. As the regional administrator, she was 
responsible for overseeing the delivery of the agency's small 
business programs and the business development initiatives 
throughout the mid-Atlantic region. Recently, she was elevated 
to the position of national director of the Office of Rural 
Affairs, where she is responsible for overseeing business and 
economic development throughout rural America.
    Thank you both so much for being here today. I will now 
recognize each witness for 5 minutes to provide their 
testimony.
    Ms. Brand, you are now recognized for 5 minutes.

   STATEMENTS OF BETTE BRAND, ADMINISTRATOR, RURAL BUSINESS-
 COOPERATIVE SERVICE, USDA-RURAL DEVELOPMENT, WASHINGTON, DC; 
  AND MICHELLE CHRISTIAN, NATIONAL DIRECTOR, OFFICE OF RURAL 
     AFFAIRS, UNITED STATES SMALL BUSINESS ADMINISTRATION, 
                         WASHINGTON, DC

                    STATEMENT OF BETTE BRAND

    Ms. BRAND. Thank you very much, and good morning. 
Chairwoman Finkenauer, Ranking Member Joyce, and distinguished 
members of the Committee, my name is Bette Brand, and I am the 
administrator for USDA Rural Development, Rural Business-
Cooperative Service. The Rural Business-Cooperative Service, or 
RBCS, provides capital to rural businesses and communities to 
improve economic opportunity and quality of life for rural 
Americans.
    As administrator, I oversee the programs delivered by the 
Rural Business-Cooperative Service, which includes business 
programs, cooperative programs, community/economic development 
programs, and energy programs. The investments RBCS makes to 
help support America's long-term prosperity by ensuring that 
our rural communities continue to contribute to the economy 
grow and prosper.
    Our business programs provide financial backing to 
stimulate business creation and growth through partnerships 
with public and private community-based organizations and 
financial institutions. Through our programs, we partner with 
rural businesses to deliver financial assistance and business 
development to help provide capital for facilities, 
improvements for energy efficiency, renewable energy 
production, job training, equipment and entrepreneurial skills 
that support, create, and preserve quality jobs in rural 
communities.
    Along with America's rural businesses, cooperatives also 
make up an essential part of the U.S. economy. Helping farmers 
and ranchers not only market their products, but also providing 
services that keep our rural communities going, such as 
electricity, telecommunications, financial services, and home 
healthcare. Communities also have benefited from other 
cooperatives such as grocery stores, pharmacies, and hardware 
stores. RBCS delivers programs designed to help rural 
communities begin, improve, and expand cooperatives.
    The Rural Business-Cooperative Service also recognizes the 
value of energy efficiency through rural businesses, 
cooperatives, and communities. As a result, we have a suite of 
programs that are designed to help finance the cost of 
renewable energy systems and improve energy efficiency for our 
customers. We are also committed to partnering with other 
Federal agencies to improve program effectiveness and delivery 
to businesses, organizations, cooperatives, and consumers 
across rural America.
    In April of 2018, USDA signed a memorandum of understanding 
with the Small Business Administration to strengthen 
collaboration on a shared set of goals, including improved 
access to capital and rural communities, streamlining program 
delivery, innovation for rural technical assistance providers, 
and partnerships with rural businesses to provide the tools 
they need to succeed. The MOU established four interagency 
working groups to address some of the challenges in rural 
America, but specifically focused on business growth and access 
to capital.
    Field collaboration for both USDA and SBA has been a 
valuable outcome of the MOU in order to strategically meet the 
needs of rural businesses across the country. USDA and SBA have 
set forth strategic goals and objectives for fiscal year 2020 
to provide access to capital and to increase awareness of 
programs that support the mission of both agencies.
    Thank you for having me here today to discuss the important 
work that Rural Business-Cooperative Service does to support 
rural businesses, cooperatives, and communities. USDA will 
continue to work with SBA to promote economic prosperity in 
rural communities because together America prospers. At this 
time, I would be happy to answer your questions.
    Mr. GOLDEN. [Presiding.] Thank you, Ms. Brand. And you may 
have noticed while you were opening up there that we have 
changed faces on you. Looking forward to having a good back and 
forth, and thanks again for being here today.
    And Mrs. Radewagen and I have worked together actually 
recently on a bill to reauthorize the small business 
development centers, which you are likely familiar with, Ms. 
Christian. And I would go ahead and recognize you for 5 minutes 
for opening statement. Thank you.

                STATEMENT OF MICHELLE CHRISTIAN

    Ms. CHRISTIAN. Thank you.
    Good morning, members, and thank you for inviting me here 
to today's hearing. I am honored to have the opportunity to 
discuss SBA's focus on rural entrepreneurism, entrepreneurship, 
and the positive impacts those efforts are having on America's 
small businesses. My name is Michelle Christian. I am the Small 
Business Administration's director of rural affairs, a position 
that I am pleased to have accepted 2 months ago after serving 
as the mid-Atlantic regional administrator. I coordinate now 
with SBA's nationwide regional administrators, all of our 68 
district offices, and all of our partners to engage directly 
with rural entrepreneurs.
    By working closely with these district offices and other 
Federal agencies, SBA's Office of Rural Affairs can directly 
assist in connecting rural communities and entrepreneurs, no 
matter where they are in their process of starting their 
business, with vital small business resources to help them 
start and grow. At the SBA, we use strategic relationships and 
partnerships to reach all of our small business constituents, 
including those in rural areas where my office will 
specifically focus on.
    In 2018, former Administrator Linda McMahon made SBA's 
rural initiative a priority for the agency. Bolstered by the 
memorandum of understanding with the U.S. Department of 
Agriculture, we are furthering the Administration's goal to 
bring prosperity back to rural America. The goal of the MOU is 
to strengthen rural businesses and agricultural economies 
through more effective program delivery and increased access to 
capital. Because of the MOU, the USDA and SBA have better 
coordination in administering their respective programs, and we 
are designing it to aid rural small businesses and 
entrepreneurs. Working individually, SBA and USDA do have 
different customers. Working together, each agency can now 
reach a new constituency, and that is a positive impact that 
the MOU has now had.
    Our outreach and connection building with rural businesses 
and communities is and has been a mission of the SBA. My 
position as director is to now coordinate the activities and 
the outreach with our SBA district offices and to be sure to 
include the Federal, State, and local partners in all of the 
rural communities to educate everyone on all of our resources.
    These outreach events focus on bringing Federal resources 
directly to the rural entrepreneurs and directly to the rural 
small business owners. SBA is well positioned to lead these 
rural outreach sessions since we have many connections in these 
small local communities. We hold regular roundtables and forums 
where we, in conjunction with our resource partners, local 
chambers, and community leaders, support the small business 
ecosystem as a whole. In rural opportunity zones, we educate 
rural communities on the potential for investment, as well as 
the incentives created by this program. Outreach events and 
activities are happening across the country in our regional 
offices, district offices, and resource partners.
    One of the key aspects of my job is to listen to 
businesses. Simply having events that we show up and showcasing 
what we have and do and leave is just simply not enough. We 
must listen and we must understand how the current process or 
program in the Federal Government is or is not working for 
them, and we must ensure proper followup, and that is the key. 
It is through this outreach that I have learned that rural 
entrepreneurs often face challenges that nonrural owners don't, 
such as lack of broadband.
    I would like to thank by closing the Committee for the 
chance to discuss how SBA is able to help rural small 
businesses. While I might not be an obvious choice for this 
rural affairs position, I am from New Jersey, I went to school 
in New York, and I live outside of Philadelphia, but I have a 
real passion to help and adjust the needs of the people in 
rural America. Everyone might not want to take advantage of 
what we are telling them and they may never want to talk to us 
again, but it is our job to ensure that every American, 
regardless of where they reside and live, is informed of the 
programs and services that are available through the Federal 
Government.
    Thank you, and I look forward to your questions.
    Mr. GOLDEN. Thank you very much.
    I will go ahead and kick things off. You know, one of the 
first things I wanted to ask you about and, Ms. Christian, it 
is just out of curiosity; actually, you had pointed out in your 
written testimony and I think maybe a little bit in your 
opening statement, you talked about 40 percent of opportunity 
zones being designated in rural areas, which I think has 
potential to be very helpful in some communities. I am getting 
some feedback, though, on the ground in my district, which is, 
I believe, the second most rural in the entire House of 
Representatives, it is big and large, Maine's Second 
Congressional District, but there is not really a lot of 
activity going on around these, and some concerns that by the 
time some of the guidelines were put out, the program, you 
know, was well advanced, and people asking for an extension of 
sorts in order to be able to apply.
    But I was just curious what strategies you might have in 
mind to try and get people to more actively pursue these 
opportunities. Because I do think, to date, that many of the 
investments have been focused on more metropolitan and urban 
areas where there is a longer history of investment, perhaps 
viewed as less risky for investors, and I think that that is 
unfortunate, because I think that the spirit of the law was 
certainly meant to direct some of these opportunities into 
rural areas. So any ideas and planning that you have on that?
    Ms. CHRISTIAN. So I have two ideas actually. The first week 
of December, there will be some opportunities on events 
actually in Maine too. I hope you are made aware of those, and 
if not, we will make sure that you are. We are trying to focus 
more on the rural areas when it comes to opportunity zones 
because the cities are low-hanging fruit. Baltimore was able to 
hire an opportunity zone czar. Rural communities are not able 
to do that. Local mayors and economic development folks are 
very focused on just running the town, quite frankly, and it is 
difficult to learn all the nuances with these rules and 
regulations that keep coming out.
    So, there is a focus to educate the local communities, the 
small rural communities on what they can achieve through this 
program. It is a push and it will be a push through my office 
to educate the communities. I was recently speaking with a very 
small town economic development team in trying to showcase to 
them how small businesses in their community can grow and how 
we can also attract new businesses, because even when a bigger 
business comes, small businesses thrive because it is the 
ancillary businesses; it is the supply chain. So, there is so 
much more than when people just think small business and, quite 
frankly, we go up to 500 people.
    So, in rural America, a facility with 500 people, I 
sometimes get a glare, it is like we don't need a 500-person 
facility, a manufacturing plant with 150 will do just fine. So, 
I think it is apples and oranges with cities to these rural 
areas, but we are out there, we are trying to inform, and that 
goes back to what we do at SBA. It is really letting 
individuals and communities know what the resources are.
    And in regard to opportunity zones, the way this is framed, 
it really is a bottom-up approach. This is not a Federal 
program coming down, because the investment is coming from 
private entities, and what you said, sometimes the investment 
might not pencil out in a rural community, and that is the 
issue where--go to Brooklyn, you may have a better chance of 
getting a very quick return, but in a lot of these other 
communities, there may be some work there to be done.
    That being said, there are--the White House Opportunity 
Revitalization Council has the 17 Federal agencies and 
commissions that are working with their grants and programs to 
give priority and preference points and a special treatment, 
for lack of a better term, to these communities so that they 
can better themselves. So hopefully, through those two 
programs, the investment and the programs through the Federal 
Government, we can help revitalize these communities.
    Mr. GOLDEN. Well, I look forward to learning more about how 
things go in my district, and would certainly love to join or 
have my staff there and be a part of that. We have had a great 
relationship with the SBA office in the State of Maine, and we 
would love to continue that, but I think you are spot on. You 
know, town managers, you know, usually don't even have an 
economic development director or someone to assist them. So the 
follow-up piece of what you were talking about in regards to 
your office's mission, I think, is actually most critical 
because people don't have a lot of bandwidth and really do need 
an aggressive office that will not only show up and listen, 
like you said, and that is just step one, but then secondly, 
follow up and actually bring some manpower and resources to the 
table to actually help people access some of these great 
programs that are potentially out there for them. So thank you.
    Ms. CHRISTIAN. That is the key, I believe, to what I am 
going to do with this office, is to ensure that follow-up, 
because it was not enough to just give the information; it is 
helping them utilize that information correctly.
    Mr. GOLDEN. Thank you. We will certainly have some follow-
up questions, but I will go ahead and recognize Congresswoman 
Radewagen for 5 minutes of questioning. Thank you.
    Mrs. RADEWAGEN. Congressman, good morning. Thank you, Mr. 
Chairman. I also want to welcome Ms. Brand and Ms. Christian, 
and thank you for testifying today.
    My first question is for the both of you. What is the best 
way for rural business owners to learn about each of your 
programs? Ms. Brand?
    Ms. BRAND. Thank you for that question. We are very 
fortunate to have people--a team from Rural Development in each 
of the States serving specific States and 47 that cover across 
the United States. Within those State, the State directors, we 
also have a team that are specifically trained in the different 
program areas. And so that is the key. The primary source of 
being able to provide information is having direct access to an 
individual that cannot only explain their programs, but help 
walk through how they may best use all the programs to better 
serve.
    In addition, we, of course, have the website and many 
avenues for media and information. We also--many of our 
programs are guaranteed programs, so we work really hard to 
inform our lenders, and they too are a very good advocate 
because they go out and seek businesses and we are then able to 
guarantee the loans for them.
    Mrs. RADEWAGEN. Ms. Christian?
    Ms. CHRISTIAN. Thank you. We have our 68 field offices 
throughout the country and our 10 regional administrators, and 
we are focused on getting into these rural areas. Terrain is 
somewhat of a problem for them to get to locations where we 
might be at, so we have made it a point to go to them. And 
especially with access to capital, we are trying to hold events 
at a library, at a local chamber, at a community building so 
that we bring the lenders to them. A lot of these rural 
communities are having community banks leave their area, so the 
banker that they have always known and that their parents used, 
they are no longer there. And trust sometimes is an issue in 
these types of communities, and we want to make sure we can 
connect people one-on-one.
    So, we are going into the communities and bringing the 
resources to them, not only our resources at the SBA, but also 
of our resource partners, so that they can connect with mentors 
and individuals that can help them start that business no 
matter where they are on that food chain. So if they are 
looking for a business plan, and I would like to say, even if 
you woke up in the morning and you just have an idea and you 
just want someone to talk about that idea with, we are going to 
bring that person to you.
    So, we are making it a point to bring our resources to your 
community, because to tell everyone to go on a website when 
broadband is such an issue is, quite frankly, not helpful. So, 
we are coming out to those communities individually, in-person 
to help them.
    Mrs. RADEWAGEN. As a followup, do USDA staff know SBA 
programs and vice versa? Ms. Brand?
    Ms. BRAND. Yes, ma'am. Thank you for that question. The MOU 
certainly formalized our strategy to make that a more 
structured endeavor, and we actually do have--have conducted, 
throughout the last 2 years, joint training sessions, webinars 
with the teams both here at the national office and in the 
local State offices and their offices within the State, so they 
do understand.
    And also part of the MOU, one of the results of that is we 
developed a matrix, and I believe there is a copy out on the 
table that will, I think, just outlines the different programs 
and some of the differences that will help people explain, not 
only for our employees, but for customers and lenders that are 
involved in the program.
    Mrs. RADEWAGEN. Ms. Christian?
    Ms. CHRISTIAN. So not only have we interagency trained--so 
SBA has trained USDA, USDA has trained SBA. When we are out--
and as the regional administrator, when I was out in the field, 
I would go out with the State directors of Pennsylvania, West 
Virginia, Maryland, Delaware, and we would conduct trainings 
for local leaders, legislators. We would have congressional 
roundtables and inform them of our products and services 
separately, and then also talk about ways that we can help each 
other. So if you are a small business owner but you may need 
more access to capital than we are able to give you, but you 
need our resources to help you write that business plan, well, 
then, perhaps USDA is the way to go for your capital. But you 
come to us and we will set you up with a mentor and a business 
plan and a business coach and we will get you on your way on 
the technical side. So. it has been a great partnership to get 
our resources out to the community.
    Mrs. RADEWAGEN. Thank you, Mr. Chairman. And I yield back.
    Mr. GOLDEN. Thank you.
    We will go ahead and recognize Congresswoman Angie Craig at 
this time from Minnesota's Second.
    Ms. CRAIG. Thank you so much, Mr. Chairman.
    I want to start with a question for Ms. Brand. Thank you 
both for testifying and for being here today.
    Of the numerous USDA rural business programs, there are 
some outstanding ones that provide funds directly to small 
businesses, such as the Value-Added Producer Grant program, the 
Rural Micro-Entrepreneurial Assistance program, and the Rural 
Energy for America programs. These programs can make a big 
difference to small businesses in rural communities. The Value-
Added Producer Grant has been especially impactful in my 
district where, just this past fiscal year, businesses in Red 
Wing, Northfield, West St. Paul, Farmington, and Dundas have 
received funding for necessary production equipment.
    What data are you collecting about the efficacy of these 
programs, and how are you ensuring that those who are eligible 
for these programs are adequately being served?
    Ms. BRAND. Thank you very much for that question. We have 
metrics that we measure on each of those we study, and it is 
important that we look at the jobs created, the geographic 
disbursement of our program funding. For example, the Value-
Added Producer Grant program is a very popular program. In 
fact, it is oversubscribed about three to one, so it is a 
competitive program. And we have a very methodical way of 
evaluating applications that is run through several review 
panels in order to make sure that they not only meet the 
requirements of the program, but that are being--the biggest 
impact is being made.
    And our other programs as well have the underwriting 
requirements and the regulations that we follow, but also 
looking at the impact that it makes for those communities with 
regard to underserved communities, jobs created, and other 
measures like that.
    Ms. CRAIG. That is fantastic. I just want to follow up 
with, our Committee has held two hearings on the clean energy 
economy, and we have heard about the number of small businesses 
engaged in energy efficiency, construction, and manufacturing. 
We have also seen the increased employment opportunities in 
renewable energy. I was proud to secure increased funding for 
the Rural Energy for America program during the appropriations 
process, which issues grants and loans to farms in rural small 
businesses.
    How do USDA rural business programs or the small business 
efforts that you also undertake, Ms. Christian, how do those 
support the growth and development of small businesses in the 
clean energy economy?
    Ms. CHRISTIAN. Well, most recently, we actually held an 
event with the Department of Energy, USDA, and SBA, and it was 
focused on energy in Appalachia, and our position was all types 
of energy in the supply chain and the ancillary businesses that 
come along with larger energy facilities being located in a 
rural community. So, we are well aware that small businesses 
around energy will succeed.
    There are so many jobs that are there, and many times 
people just think about the big energy company, but it really 
is those ancillary businesses. And we work, at SBA, our western 
Pennsylvania office, is constantly working with small business 
owners that are directly related to the energy industry, 
whether it is making a widget for whatever it is they are 
doing; I am not going to pretend I know. But our small business 
owners are making that widget and we are helping them. Whether 
they are a business of 10 or a business of 500, we are helping 
them to help the energy business and to succeed, and it really 
is helping those communities.
    So, when those smaller businesses are able to succeed 
around these energy facilities, then the whole community really 
thrives, and that is something that is needed in these rural 
areas. So, we are seeing such a difference, and USDA is working 
with energy. We are working with USDA. It absolutely makes 
sense for us all to be working in this universe together.
    Ms. CRAIG. Thank you.
    Ms. Brand, anything to add in the 30 seconds I have left?
    Ms. BRAND. I will say that through the reprogram, the Rural 
Energy for America, we could help many of the small businesses 
that SBA funds as well through energy efficiency, whether it be 
lighting for those refrigerators or refrigeration systems, 
things to help them improve their bottom line and reduce their 
energy cost.
    Ms. CRAIG. Thank you so much.
    Mr. Chairman, I yield back.
    Mr. GOLDEN. Thank you.
    We will now go ahead and recognize Congressman Dan Bishop 
from North Carolina's Ninth.
    Mr. BISHOP. Thank you, Mr. Chairman.
    And, Ms. Christian, I am proud to represent more than 1,500 
poultry farmers in my district and, in fact, in the Ninth 
District of North Carolina, poultry farms produced in excess of 
a billion-five annual output. And the SBA has proposed a new 
rule that would restrict the ability of poultry farmers to 
access SBA section 7A loans, and I believe this rule would 
unnecessarily hurt the thousands of poultry farmers across the 
country, including the 1,500 in my district.
    I understand that the agency is still reviewing the rule, 
and I would like to know, if I could, what the status of that 
review is.
    Ms. CHRISTIAN. So that particular rule is outside of my 
purview at this time. I am sure, now that I am in this role as 
a national rural affairs director, that that will come up. I 
have only been in this position for 2 months, but that is 
something that affects rural America outside of your district 
and throughout.
    Prior, I was the regional administrator, and Delaware was 
included, and that is a big issue in Delaware also. So, if I 
could, I will get back to you on that, and we will make sure we 
have accurate information for you on where we are in that 
thinking at SBA.
    Mr. BISHOP. I would appreciate that. I began my service in 
Congress after having just won a special election, and so I am 
learning about that and intend to learn more about it. And I 
appreciate what you said earlier about, you know, the key 
aspects of your position being to listen to businesses and the 
experiences they have and then to follow up. So that would be 
terrific. I would appreciate that very much.
    Ms. Brand, if I could ask you, of the programs that the 
Rural Business-Cooperative Service oversees, which one has been 
the most successful at attracting private capital investment?
    Ms. BRAND. Thank you for that question. I would say that 
our largest program, the Business and Industry Guaranteed Loan 
program, requires that we have private equity into the project, 
whether it be from the owner or other investments that they 
have received. Oftentimes, these projects are quite big and 
require more than just the USDA guarantee, but partnership with 
SBA, other Federal agencies, or State and local tax credit 
dollars and those sort of things.
    We do also have a program within rural Business-Cooperative 
Service called the Rural Business Investment Program, where we 
certify private investment funds to serve rural America and 
people that helps them to attract investors. And most of those 
are geared toward specific geographic areas or industries, but 
between the two of them, I think, they have had a significant 
impact on bringing dollars, private dollars to balance out the 
Federal monies that are used for rural communities.
    Mr. BISHOP. Thank you, ma'am.
    I have got one more. In 2017, USDA and SBA resource partner 
SCORE signed an MOU to support new and beginning farmers, and I 
was unfamiliar with the program, reading about it here that it 
provides sort of free or low-cost mentoring and training to 
entrepreneurs throughout the country. So I assume this MOU is 
focusing on farmers.
    I wonder if either of you are aware of activities generated 
by this MOU? It seems like a particularly difficult thing to 
do, given the nature of what I understand about most farming 
businesses, tend to be passed on family to family--or 
generation to generation within families, at least I see a lot 
of that in my district, and I am curious whether or not this 
effort produces results and if you see activity resulting from 
it.
    Ms. CHRISTIAN. So, the Small Business Development Centers, 
along with all of our resource partners, provide technical 
assistance to small business owners. So it could be a Women's 
Business Center, Small Business Development Center, SCORE. We 
have partners focused on veterans business outreach centers, 
and they are helping all industries, including in rural 
locations and farmers, if they so need our resources to--and I 
apologize--with their business plans, with technical 
assistance, with getting that access to capital. We can also 
help them prepare for their loans for their loan application. 
So, these partners are out there.
    In regard to the MOU in particular, I do know that SBDCs 
are working with SBA's resource partners with them to get out 
to these communities to make sure they have that technical 
resource, because to simply give access to capital with no 
guidance at times is not very helpful at all. So, we want to 
make sure we do have that technical part, and that is what the 
SBDCs are there to do.
    Mr. BISHOP. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. GOLDEN. Thank you.
    And we also have a special guest joining us today from the 
Agriculture Committee, Congressman TJ Cox from California 21, 
and he has joined us to ask a couple of questions as well. So 
thank you very much for joining us.
    Mr. COX. Well, thank you so much for having me. I want to 
thank Chairwoman Finkenauer and Ranking Member Joyce for 
allowing me to waive around to this Committee today.
    I represent California's 21st Congressional District, which 
is the central valley of California, with the majority of the 
district being rural as well. And we like to say the 21st 
Congressional District is the top agricultural district in the 
top agricultural State. So thank you so much, Ms. Brand, Ms. 
Christian, for being here and being able to answer our 
questions.
    In May, I and 18 other Members introduced H.R. 2633, a bill 
to study reviving the Office of Rural Affairs within the SBA. 
The bill would require the SBA to submit a very detailed report 
to the Congress and this Committee on the history of the Office 
of Rural Affairs. Then in January, myself, Chairwoman 
Finkenauer, Mr. Golden, and other members of the Committee, 14 
other members, submitted a letter to the SBA asking for this 
particular information on the Office of Rural Affairs, back in 
January. And I would like to submit this letter for the record.
    Unfortunately, little disappointed to tell you, and you may 
know this, we never received a response from the SBA. The 
authorizing committee for the SBA never got a response from 
this letter. Little disappointed in that.
    At any rate, we have been advocating for the 
reestablishment of this office since the beginning of the year, 
and I am very glad to see that you have been appointed, Ms. 
Christian.
    So we are here today, we would like to know a bit more 
about the office, how you intend to use it and to support rural 
small businesses. And so the first question, what date were you 
appointed, Ms. Christian, to be the national director of the 
Office of Rural Affairs?
    Ms. CHRISTIAN. I believe the official date was August 30 of 
this year.
    Mr. COX. Okay. Yeah. And how many people are going to be 
employed in that office? What is the current budget going to 
be?
    Ms. CHRISTIAN. So, we are working on the logistics of the 
office right now. I have been there 2 months. I was the 
regional administrator in Region III. I am transitioning from 
that position into this position, so we are still working on 
that at a headquarter level with our current acting 
administrator and our staff.
    Mr. COX. Well, when do you expect to be able to have those 
plans in place and be able to get back to the Committee here 
with the size, scope, budget and so on?
    Ms. CHRISTIAN. I will work with the SBA team at our 
headquarters here in Washington, D.C., and we will see, as soon 
as possible, that we can get that information to you.
    Mr. COX. Is that going to be a year or 6 months or 2 weeks, 
or what does that mean, as soon as possible?
    Ms. CHRISTIAN. Congressman, it means as soon as I can speak 
to the staff at SBA and our acting administrator--I will make 
it a priority today, and I will commit to you that I will speak 
with folks in the agency today to see a timeline and I will get 
back to you.
    Mr. COX. Okay, thanks. Were you aware of the letter that we 
had sent, that the Committee had sent, asking about the 
reestablishment of this office?
    Ms. CHRISTIAN. I just saw the letter recently.
    Mr. COX. Okay.
    Ms. CHRISTIAN. So, no, I was not aware of it in the past. I 
have only been in this position, as I stated, since 
approximately August 30, and I just recently saw that letter.
    Mr. COX. Okay. Was anybody at the SBA aware of the letter? 
It is a little concerning if the letter got lost. As the 
authorizing committee, we want--I don't want to--we want to 
help, right. We are the legislating committee, we are the 
authorizing committee, and we go to our appropriators to be 
able to provide the funds to be able to work for the American 
people, particularly the people in our rural areas.
    Ms. CHRISTIAN. Absolutely. Here is what I can tell you, 
Congressman. I will pledge to you, to this Committee, and to 
rural small business owners, I take this job very seriously. I 
am very honored and privileged to be working in this position 
now. When I was the regional administrator for Region III, I 
did make it a focus to go into rural locations because I saw 
such a need, and I do believe because I went into those rural 
locations, I can now help on a national level. I will be 
working on a roadmap and a business plan as how I am going to 
structure this office so that we reach places and that we have 
the structure that you are looking for, and I will share that 
with you and discuss that with you and our staff.
    I do understand there is concern about the letter, but 
going forward, I am going to be and have the staff at SBA be 
everywhere we need to be to reach these rural communities.
    Mr. COX. Well, right, and thanks. And we would certainly 
appreciate the commitment for that plan, as you are speaking, 
but a timeline as well. And so it goes back to the as soon as 
possible. And so if you could commit to getting back to us with 
the plan in relatively short order, it would certainly be 
appreciated.
    I have got a little bit of time left, but I will yield the 
balance of my time for the next round. Thanks so much.
    Mr. GOLDEN. Thank you.
    And we are going to do a second round, you know, just some 
followup and closing the loop a little bit on some of what Mr. 
Bishop and Ms. Craig were talking about. I can tell you, up in 
Maine, the partnerships with farmers has actually been quite 
helpful. We have a lot of smaller farmers within the aging 
population and less of that. It used to be passed down from, 
you know, family to family, and we still have some of that, but 
often we will find some farmers who don't have anyone to hand 
that farm off to. So, you know, programs that help people, 
young families who want to get into farming, you know, learn a 
little bit, get some mentorship, and some technical assistance 
has been a big help in the State of Maine. So I want to thank 
you, both of your agencies for that.
    You know, you were talking with Congresswoman Craig a 
little bit about some of the clean energy program, and the 
program that USDA has is one that is, I think, quite popular. A 
lot of farms actually utilizing that in Maine in trying to 
establish some energy efficiency or even independence. 
Obviously, they always need some kind of backup just in case, 
but trying to get their overhead cost down is what it is all 
about.
    And I do want to encourage you to look into ways that you 
can push forward, access to capital for those types of 
investments, because the kind of feedback I get from a lot of 
small business owners in Maine about things like solar or other 
energy improvements is that the differences in interest rates 
can make the difference in whether or not it pencils out for 
them in the short term or short-enough term so that they can go 
ahead and prioritize that as an investment. And we really 
wanted to see in Maine that SBA would work, you know, a little 
bit more, you know, in conjunction with the USDA and with small 
businesses to try and make that happen. So just something I 
would share with you.
    You talked about followup and, obviously, Congressman Cox 
cares passionately about seeing the success of this new office 
and new position, and I do think that that followup is very 
important, obviously. This is also on Congress. It has been 
since the 1990s when this program was put forward and, you 
know, oversight is our role. Clearly, this was not prioritized 
under multiple administrations, and it needs to be, because 
rural America really needs that help, as you have rightfully 
pointed out.
    And I do hope that we will see in the budget some resources 
for your office and some additional resources, because you have 
got a lot of passion, but you can't do it all by yourself. You 
certainly have, you know, the regional offices at SBA, but I 
think we are going to need some more boots on the ground and 
people out there helping you with this focus on rural 
communities. So we are very interested in the timeline and what 
the plans are.
    And I did want to ask you, we talked a little bit about 
opportunity zones, but in your experiences in Region III, which 
SBA programs do you think are most helpful, most successful, 
most known in rural communities? And if you could just randomly 
choose one, which one needs the most improvement in order to be 
helpful to rural America?
    Ms. CHRISTIAN. I believe everyone thinks all the SBA does 
is lend money, and we don't even lend money. We just simply 
guarantee the loans. So, it is just education on all the 
programs. I think we are missing out on the technical part. We 
have staff that are able to walk folks through business plans, 
but then we also have our partners, and those are resources 
that are 99.9 percent free, and don't quote me on that number. 
The majority of them are free. It is taxpayer dollars. It is 
something that we want these rural communities to understand.
    Something else that is really important, when I am 
traveling, business owners are having a workforce issue. They 
cannot keep employees. A lot of these rural communities have a 
terrible drug epidemic with the opioid crisis, and all that has 
come with that has led to some workforce problems. We are 
hoping to bridge that gap. We are working with community 
colleges to have them partner with small businesses and do some 
apprenticeships and really train both high school kids, 
community college kids, and then those reentering the workforce 
if they had left a position and now they come back.
    We have the MOU with USDA, which we are working hard with, 
but I also believe that we are breaking down the silos and 
bringing information from other agencies over to rural America. 
For example, the workforce programs through the Department of 
Labor, which I regularly speak about and refer over to the 
Department of Labor, because I am--again, we are the boots on 
the ground. So we have the access to that rural community, and 
the Department of Labor may not have that access, but if I can 
take that local community and connect them to someone who can 
help them in the Federal Government that is not myself, I have 
done my job. So, I want to inform everyone of our programs and 
services, but I also want them to know as a bigger picture what 
is out there and what is available.
    Mr. GOLDEN. Thank you. You know, I think we have a lot that 
we agree about. Early on in my, you know, new term here in 
Congress, I went out being a new member of this Committee, I 
toured all these businesses in my district, and often took SBA 
up on offers to do roundtables. We still do that. And the sad 
thing is, as I often hear as I talk to small business owners, 
well, did you ever think about reaching out to SBA about this? 
I wasn't really aware that they do that. Did you know you could 
get some mentorship through the SCORE program or assistance 
through this program? I don't know it exists.
    And you have pointed out there is also a rural broadband 
internet access divide. So boots on the ground, again, and the 
face-to-face. You mentioned, I thought it was interesting in 
your opening statement, that some people may never want to talk 
to you again. That is that trust factor with the government, 
and that comes from face-to-face and personal relationships. I 
just want to--I think you have an opportunity in your position 
to push SBA out into these rural areas with those types of 
meetings are really important and could make sure that the 
programs that SBA has to offer are better utilized, and I think 
that would be a benefit to rural communities.
    Mrs. Radewagen, would you like to ask any more questions?
    Mrs. RADEWAGEN. Thank you, Mr. Chairman.
    Let's see here. So, Ms. Christian, how does SBA define 
rural and how does USDA define rural?
    Ms. Brand, how can business owners find out if they qualify 
as rural according to program requirements?
    Ms. CHRISTIAN. I will not speak for USDA. They have many 
programs. So, as part of this joint MOU, we are using the Rural 
Development's definition of rural, so I will defer to Ms. Brand 
on her programs. But they can find out by contacting our 
office. We will let them know if they qualify as rural.
    But to be honest, we help everyone, so we are helping 
rural, suburban, Tribal. If you are in a city--we are helping 
everyone. We have everyone out there and we are spreading our 
resources. We are having more of a focus on rural, so if you 
are just outside a 50,000-person parameter that defines you as 
rural, we are still going to make sure that we help that 
community. So, we are helping all communities, but the MOU does 
have the focus, and I will defer to Bette.
    Mrs. RADEWAGEN. Ms. Brand?
    Ms. BRAND. Thank you. In our programs in Rural Business-
Cooperative Service, the definition of rural are those towns or 
municipalities less than 50,000, and they can find out through 
not only our State office, but we also have many area offices 
within the State and have people out ready to explain to them 
and help them understand. But certainly, if it is less than 
50,000, it is pretty cut and dry.
    Mrs. RADEWAGEN. Thank you.
    Next question. The SBA Rural Strong initiative is delivered 
in partnership with USDA through the 2018 MOU. According to an 
SBA press release, Rural Strong is a comprehensive initiative 
compromised with specific programming to rural economic 
development needs. What services are provided through this 
initiative and where have events taken place? Who determines 
where and when joint events are held?
    Ms. CHRISTIAN. I was a part of putting that together. I am 
very proud of the work that we did as part of the MOU. We 
pretty much--I use the term ``roadmap.'' That is what that is. 
It is a playbook on how we can better service the communities 
together. And we determine where we are going. We reach out to 
our congressionals. We reach out to chambers of commerce. We 
really try to get as many people in one room at one time to 
give our services. A lot of these small business owners are 
working the business. They don't have time during the day to 
come out, so we want to make sure that if they do come to us 
for an hour or 2, we have many, many resources from all of our 
resource partners, USDA.
    When I would do an event, I would sit there with my USDA 
State director, we would have our resource partners, our 
district directors, local mayors, State reps, congressionals, 
everyone at the table, because it is a holistic approach. It is 
not just one person helping one person. We want to help 
communities as a whole. We want to get as much information out 
as we possibly can, and we get to connect these business owners 
with their legislators, with their elected officials, that they 
may not always be able to connect with. And we have seen things 
happen in those communities that they may have needed to get 
done, but they didn't have the door to--or they didn't know how 
to access you, so it is a two-way street. We hope that you come 
to us and you let us know what you need, and we bring business 
owners to you also.
    Mrs. RADEWAGEN. I would like to just get your perspective 
as well, Ms. Brand.
    Ms. BRAND. Yes. Thank you very much. Ms. Christian's 
description of those events and opportunities for all of the 
partners, Federal, State, and local, to get together and help 
our small business owners and people in communities in rural 
areas understand how these programs--not just what our programs 
do and what SBA's programs do, but how they can work together 
and really describe--with those people that are sitting there 
through those meetings are able to describe certain projects, 
how they were accomplished, the different partners that came 
in, and that helped people visualize.
    Also, the lenders in those areas are there as well, and 
they are also understanding and sharing best practices to help 
people become more familiar and comfortable with--because every 
situation could be different and it is unique, and we help them 
figure out and visualize what it would look like for them.
    Mrs. RADEWAGEN. Thank you, Mr. Chairman. And I yield back.
    Mr. GOLDEN. We are going to go ahead and recognize--did you 
have further questions, Mr. Cox?
    Thank you.
    Mr. COX. And thanks, Mrs. Radewagen. I was going to ask the 
same exact question about rural definition, because it all 
seems to be a conflict between the USDA, the Census Bureau, the 
Treasury Department, and Congress department and so on. Because 
what I can tell you is that a lot of the counties I have, they 
have towns with larger than 50,000 people, but then 20 miles 
out it is as rural as you can be. And, unfortunately, a lot of 
those areas don't qualify for a lot of the USDA financing, and 
I want to make sure that they do under the SBA.
    But a lot of the issues that you find in rural areas is 
simply market values and appraised values. If I want to build a 
building that is going to cost me a million dollars because it 
is being built in this rural area, it might only appraise at 
$800,000 and then you can only lend 70 percent on that, and so 
I have got a large financing gap there. And I would like to 
know, what are the tools that are available out there to be 
able to meet that financing gap? And are you working with, you 
know, the Treasury Department, like the CDFI Fund, which 
oftentimes brings that type of capital, that gap financing 
available to these worthy projects in rural areas?
    Ms. BRAND. Yes, thank you. You are exactly right, it takes 
CDFIs, it takes tax credits, new market tax credits, it takes a 
lot of Federal and State and local partners. There is 
historical tax credits that can be utilized as well. And to put 
all those together, many of these small businesses may be 
overwhelmed by the options, and so we work together to make 
sure that all of the resources are available and are understood 
so that they can truly figure out.
    And the value of the real estate does have an impact on 
being in rural. Oftentimes, the specialty of the collateral may 
be limiting as well, but all of those are things that we have 
worked with for the many years that we have had the program and 
understand and have had many success stories of businesses that 
were able to fulfill their dreams and provide jobs in the 
community through our programs.
    Mr. COX. Great. Thanks.
    Ms. Christian, did you want to weigh in on that?
    Ms. CHRISTIAN. I think I just want to emphasize that we are 
out in the community, outside of where USDA can reach, so it is 
a part of this partnership that we have for us to possibly come 
in in that circumstance that you just described. So, we may not 
have a business that qualifies for USDA's services, but they 
can obtain access to capital through one of our lenders.
    So rural, although there are definitions with numbers, 
there is still commonsense rural, right, outside of the 
government's definition of rural, and we still want to make 
sure we reach those people that are in those areas.
    Mr. COX. Yeah. And that is certainly the case that the 
commonsense definition of rural sometimes doesn't meet the 
statutorily defined sense and limits a lot of that lending.
    And the other thing is, is that it is interesting what you 
are talking about opportunity zones, is that opportunity zones 
may be a source of capital, but that capital is always there 
for one reason, and it is employed and its invested to meet 
demand. And that is the issue in rural areas is that there is a 
demand. I can build a fantastic hotel with my opportunity zones 
in upstate Maine, but if no one is up there, right, they are 
not going to get a return on that.
    And I know one of the core functions and the mandated 
functions of this Office of Rural Affairs is to promote tourism 
and travel. And I guess, are there plans to work with the 
United States Tourism and Travel Administration to assist small 
businesses in rural areas with tourism promotion and 
development?
    Ms. CHRISTIAN. So, what I found in these rural locations is 
tourism is really having a boom. So, in these coal towns and 
steel mill towns, tourism is the new hot boom and it is the new 
hot economy. Actually, in West Virginia, we partnered with USDA 
to do joint lending for a hotel outside of a ski resort in 
southern West Virginia--West Virginia and Pennsylvania are my 
rural, and Virginia, so I apologize. I know I am national now, 
but I was very focused on this area.
    There are Hatfield and McCoy trails in West Virginia. That 
is a big boom for the economy. There is so much going on in 
these rural areas so, yes, I focus with the State. I will be 
focusing nationally now, so that is something that I think we 
forget about in these rural communities that could advertise to 
come into the rural communities. And speaking of rural 
opportunity zones, to build a hotel, perhaps focusing on the 
tourism and the small businesses and the great restaurants and 
the great breweries, we do so much at SBA related to tourism, 
and I would like to package that to help these rural areas 
advertise for themselves so that they can, you know, fill the 
boom that is going on in the rest of the country.
    Mr. COX. Thanks so much. That is absolutely one of the 
mandated goals of this office, and so I would like to reiterate 
our support for that goal there. So thanks very much.
    Ms. CHRISTIAN. Thank you.
    Mr. COX. I will yield.
    Mr. GOLDEN. Well, I think that we are going to go ahead and 
wrap it up at this point. I do want to thank you both.
    Ms. Brand, I apologize, I didn't really have a whole lot of 
questions for you about USDA, but we are very familiar with the 
programs offered in Maine and appreciate the work that is being 
done--as we do SBA--although, I think, you know, more work to 
be done, and that is why you are in this position, and we look 
forward to working with you to help you be as successful as you 
can.
    And with that in mind, I am sure that the Committee staff 
will be following up with you with some questions about program 
metrics, data and plans, budget, what we might expect out of 
our President's budget request in support of your mission and 
things along those lines, because we want to make sure that we 
are moving forward. Certainly incumbent upon us not to drop the 
ball.
    You did mention you have--by the way, you know, Maine being 
at the northern stretch of the mountain range, tomato/tomato 
type thing, Appalachia/Appalachia, you know, we say it a little 
bit different, but you pointed out you have a real, I think, 
pride point in that area and a strong focus on it. Don't forget 
the other rural areas, because there is a lot of them and they 
do need help. So we are going to look to you to really have a 
national focus, because every community, every rural community 
deserves the help. So thank you.
    All right. I suppose I will go ahead and read Congresswoman 
Finkenauer's closing statement, unless there is anything in 
here I object to, but I suppose it is probably not the case.
    So thank you again for being here today, both of you. We 
appreciate it, and we appreciate the work that you do for rural 
communities.
    Small businesses are the backbone of the American economy, 
and for rural communities that continue to struggle with things 
such as declining population, innovators and small business 
owners can help unlock new potential and opportunity. As we 
have discussed today, the Department of Agriculture and the 
Small Business Administration are already working to engage 
rural businesses in communities, but certainly more can be 
done.
    This hearing was the first in a series of oversight efforts 
to make sure that our Federal resources are reaching small 
businesses and promoting economic development in rural 
communities. As part of that oversight, this Subcommittee will 
monitor the progress being made by the Office of Rural Affairs 
as it scales up services and outreach efforts in rural areas.
    This office will also continue its outreach to leaders in 
northeast Iowa, I suppose, but we will certainly focus on Maine 
as well, and we want to hear about their experiences working 
with the Department of Agriculture and the Small Business 
Administration to make sure that the programs and services that 
we discussed today are translating into real results for rural 
communities. As we continue to work on ways to better support 
entrepreneurs and small businesses in America, I encourage my 
colleagues here today to do the same in the congressional 
districts that they represent.
    And I would ask unanimous consent that members of the 
Committee have 5 legislative days to submit statements and 
supporting materials for the record. Without objection, so 
ordered.
    And if there is no further business to come before the 
Committee, we are adjourned. Thank you very much.
    [Whereupon, at 11:14 a.m., the subcommittee was adjourned.]
    
                    A P P E N D I X
                    
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            



                                 <all>
</pre></body></html>
